OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with Multnomah County Sheriffs Office, Portland, Oregon
Office of the Inspector General



Executive Summary


The Office of the Inspector General (OIG), Audit Division, has completed an audit of the Intergovernmental Service Agreement (IGA) between the United States Marshals Service (USMS) and the Multnomah County (Oregon) Sheriffs Department (County).  During the audit period the County billed the USMS for 19,366 jail days at $97.55 for a total of about $1,889,153.
We analyzed jail day billings to determine if the amounts claimed were accurate and if the daily rate corresponded to the rate as stated in the IGA.  In addition, we reviewed inmate visitor logs and records documenting the receipt of inmate mail and packages.  Specifically, we tested the county agreement/application with the USMS to provide detention space at the Jail for Federal prisoners.
Based on our review, we determined that:

The base for the Countys Cost Proposal included $1,131,864 in unallowable costs.  As a result, the County overbilled the USMS $254,857.
No material deficiencies were identified in the following areas:  accuracy, completeness, and adequacy of documentation; internal management, administrative and financial controls, control over government furnished property; accuracy of reports; and, records relating to visitors, mail, and packages received by inmates.




 




Return to OIG Home Page